      Department of Homeland Security



            Operations of United States Immigration
              and Customs Enforcement’s Secure
                          Communities




OIG-12-64                                 April 2012 (Revised)
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                    April 5, 2012

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the operations of the United States Immigration and Customs
Enforcement’s Secure Communities. It is based on interviews with employees and
officials of relevant agencies and institutions, direct observations, and a review of
applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Anne L. Richards
                                      Assistant Inspector General for Audits
Table of Contents/Abbreviations
Executive Summary.............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ..................................................................................................................5


     Criminal Alien Identification.........................................................................................5


     Enforcement Actions .....................................................................................................8


     Secure Communities Incarceration Costs ....................................................................10


     Actions Taken by ICE..................................................................................................11


Recommendations..............................................................................................................11


Management Comments and OIG Analysis ......................................................................11


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................13

     Appendix B:           Management Comments to the Draft Report .......................................14

     Appendix C:           ICE Enforcement and Removal Programs...........................................18

     Appendix D:           Jurisdictions Where ICE Activated Secure Communities ...................19

     Appendix E:           Major Contributors to this Report........................................................20

     Appendix F:           Report Distribution ..............................................................................21


Abbreviations
     ACRIMe              Alien Criminal Response Information Management System

     DHS                 Department of Homeland Security

     FBI                 Federal Bureau of Investigation

     FY                  fiscal year

     IAFIS               Integrated Automated Fingerprint Identification System

     ICE                 United States Immigration and Customs Enforcement

     IDENT               Automated Biometric Identification System

     LESC                Law Enforcement Support Center

     OIG                 Office of Inspector General

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                      The Department of Homeland Security’s (DHS) United States
                      Immigration and Customs Enforcement (ICE) is responsible for
                      identifying, detaining, and removing deportable aliens from the
                      United States. In 2008, it implemented Secure Communities to
                      enhance its ability to identify criminal aliens nationwide. The key
                      component of Secure Communities is automated information
                      sharing between the Department of Homeland Security and the
                      Federal Bureau of Investigation. Since 2008, ICE has spent about
                      $750 million on Secure Communities and identified more than
                      692,000 criminal aliens. In response to a request from
                      Representative Zoe Lofgren, the Office of Inspector General
                      initiated two reviews of Secure Communities. We performed this
                      audit to determine if Secure Communities was effective in
                      identifying criminal aliens and if Immigration and Customs
                      Enforcement appropriately prioritized cases for removal action.

                      Secure Communities was effective in identifying criminal aliens,
                      and in most cases, ICE officers took enforcement actions according
                      to agency enforcement policy. Under Secure Communities, the
                      agency expanded its ability to identify criminal aliens in areas not
                      covered by its other programs. In addition, it was able to identify
                      criminal aliens earlier in the justice process, some of whom it
                      would not have identified under other programs. Secure
                      Communities was implemented at little or no additional cost to
                      local law enforcement jurisdictions. Although ICE was able to
                      identify and detain criminal aliens, field offices duplicated the
                      research associated with their detention, and officers did not
                      always sufficiently document their enforcement actions. To
                      improve the transparency and thoroughness of its processes under
                      Secure Communities, the agency needs to eliminate the duplication
                      of research and ensure that officers fully document their actions.

                      We made two recommendations to improve the agency’s overall
                      management of Secure Communities. ICE concurred with the two
                      recommendations and is taking action to implement them.




      Operations of United States Immigration and Customs Enforcement’s Secure Communities

                                             Page 1
Background
                          ICE is responsible for identifying, detaining, and removing
                          deportable aliens from the United States. In addition to Secure
                          Communities, ICE has three programs to identify and apprehend
                          criminal aliens: the Criminal Alien Program, 287(g) Program, and
                          the National Fugitive Operations Program. Appendix C contains
                          descriptions of these programs.

                          Funding for the identification and removal of criminal aliens has
                          increased significantly, from $23.5 million in fiscal year (FY) 2004
                          to about $690 million in FY 2011. ICE has spent about $3.3 billion
                          on these efforts since FY 2004. Figure 1 shows the annual funding
                          increases for criminal alien identification and removal.


                          Figure 1. Funding for Criminal Alien Identification and
                          Removal, FYs 2004 Through 2011
                                         $800
                              Millions




                                         $700
                                         $600
                                         $500
                                         $400
                                         $300
                                         $200
                                         $100
                                           $0
                                                2004 2005 2006 2007 2008 2009 2010 2011
                             Source: ICE.

                          Federal Information Sharing

                          The key component of Secure Communities is automated
                          information sharing between the DHS’ Automated Biometric
                          Identification System (IDENT) 1 and the Federal Bureau of
                          Investigation’s (FBI) Integrated Automated Fingerprint
                          Identification System (IAFIS). IDENT collects fingerprints and
                          other information for its mission-related functions, such as national
                          security, law enforcement, immigration, and intelligence. IAFIS is


1
  IDENT is the primary DHS-wide system to collect and process biometric and limited biographic
information for DHS’s mission-related functions such as national security, law enforcement, immigration,
and intelligence.

         Operations of United States Immigration and Customs Enforcement’s Secure Communities

                                                     Page 2
                the largest fingerprint database in the world, housing more than 70
                million fingerprints and criminal histories.

                The integration of information in IDENT and IAFIS began as early
                as 1998. In 2001, Congress mandated integration of the systems
                through the USA PATRIOT Act of 2001 (Public Law 107-56),
                which required the creation of an electronic system to share law
                enforcement and intelligence information to confirm the identities
                of persons applying for United States visas. The integrated system
                would be easily accessible to all consular offices, federal
                inspection agents, and law enforcement officers responsible for
                investigating aliens. The Enhanced Border Security and Visa
                Entry Reform Act of 2002 (Public Law 107-173), which amended
                the USA PATRIOT Act of 2001, mandated that immigration
                authorities have immediate access to relevant information in
                federal law enforcement agencies’ databases to determine the
                admissibility or deportability of an alien.

                Secure Communities Identification Process

                In the Consolidated Appropriations Act, 2008 (Public Law 110­
                161), Congress appropriated $200 million for ICE to “improve and
                modernize efforts to identify aliens convicted of a crime, sentenced
                to imprisonment, and who may be deportable, and remove them
                from the United States once they are judged deportable.” In April
                2008, as required by Congress, ICE submitted Secure Communities:
                A Comprehensive Plan to Identify and Remove Criminal Aliens.
                According to ICE’s most recent plan, from March 2010, the goals
                of Secure Communities are to—

                    •	 Identify criminal aliens through modernized information
                       sharing;

                    •	 Prioritize enforcement actions to ensure apprehension and
                       removal of dangerous criminal aliens; and

                    •	 Transform criminal alien enforcement processes and
                       systems.

                Since FY 2008, Congress has appropriated about $750 million to
                ICE to improve and modernize the process for identifying and
                removing criminal aliens. According to ICE, as of September 30,
                2011, it had spent most of the $750 million and identified more
                than 692,000 criminal aliens. Prior to the implementation of
                Secure Communities, law enforcement agencies sent fingerprints
                of arrested individuals to the FBI to determine whether the

Operations of United States Immigration and Customs Enforcement’s Secure Communities

                                       Page 3
                           individuals had outstanding warrants or a criminal history. Under
                           Secure Communities, IAFIS automatically shares these fingerprints
                           with DHS to screen IDENT for removable aliens. If the
                           fingerprints match a person with an immigration record, the
                           information is automatically sent to ICE’s Law Enforcement
                           Support Center (LESC). 2

                           LESC personnel research each match, confirm the individual’s
                           identity, and make an initial determination on the individual’s
                           criminal history and immigration status. The LESC’s initial check
                           may indicate that the alien is removable because he or she entered
                           the country illegally, overstayed a visa, or was previously deported.
                           After the LESC makes its initial determination, it alerts the
                           appropriate ICE field office or one of ICE’s Interoperability
                           Resource Centers.

                           Field office personnel duplicate research of the criminal history
                           and immigration status and determine whether to detain and
                           remove the individual. In making a determination, officers consider
                           the entire criminal and immigration history. For example, an alien
                           previously convicted of an aggravated felony is considered high
                           priority for removal, even if his or her current arrest is for an
                           otherwise minor offense. If necessary, officers request the
                           arresting local jurisdiction to detain aliens for up to 48 hours
                           (excluding holidays and weekends) to allow ICE to take custody.

                           Individuals With Fingerprints in IDENT

                           Individuals with fingerprints in IDENT include persons with an
                           immigration history, such as aliens who have been removed but
                           have reentered the country, immigration visa applicants, legal
                           permanent residents, naturalized citizens, and some U.S. citizens.
                           IDENT includes two categories of U.S. citizens:

                                •	 Citizens who have adopted a child from abroad (which
                                   involves U.S. Citizenship and Immigration Services),
                                   participated in a trusted traveler program, or may have been
                                   fingerprinted by immigration officials for smuggling aliens
                                   or drugs across U.S. borders;

                                •	 Individuals who were not citizens at the time that their
                                   fingerprints were collected, but subsequently became


2
 The LESC operates 24 hours a day, 7 days a week, and provides identity information, immigration status,
and assistance to law enforcement agencies for aliens suspected, arrested, or convicted of criminal activity.

          Operations of United States Immigration and Customs Enforcement’s Secure Communities

                                                   Page 4
                             citizens through naturalization, legal permanent residency,
                             or immigration.

Results of Audit
     Under Secure Communities, ICE effectively identified criminal aliens, and in
     most cases ICE officers took enforcement actions according to ICE’s enforcement
     policy. Further, Secure Communities expanded ICE’s ability to identify criminal
     aliens in areas not previously covered by its other programs. ICE was also able to
     identify criminal aliens, some of whom it might not have otherwise identified,
     earlier in the criminal justice process. Secure Communities was implemented at
     little or no additional cost to local law enforcement jurisdictions. However,
     because technology did not allow the LESC to share its research on criminal
     aliens, ICE officers duplicated the research necessary to detain criminal aliens. In
     addition, ICE officers did not always sufficiently document their actions related to
     individuals with identity matches. ICE needs to eliminate duplication of research
     and ensure that officers document their actions regarding individuals identified
     through Secure Communities to improve transparency and demonstrate that its
     officers are taking appropriate actions.

     Criminal Alien Identification
            Secure Communities enhanced ICE’s ability to identify aliens with
            criminal convictions by expanding to areas not previously covered by its
            enforcement programs. In addition, Secure Communities allowed ICE to
            identify aliens who it normally would not encounter in the criminal justice
            process.

                     Expanded Identification Coverage

                     Secure Communities enhanced ICE’s ability to enforce U.S.
                     immigration laws by expanding its coverage to jurisdictions where
                     it did not previously have a presence. In FY 2008, ICE estimated
                     that 300,000 to 450,000 criminal aliens were incarcerated in
                     federal and State prisons and local jails. ICE’s Criminal Alien
                     Program focused on screening and identifying aliens in all federal
                     and State prisons and in some local jails. Although ICE screened
                     all federal and State prisons for criminal aliens, it reported being
                     able to screen only 14% of local jails nationwide. According to
                     ICE, as of December 28, 2011, it had implemented Secure
                     Communities in 2,027 jurisdictions in 44 States, or 64% of the
                     Nation’s 3,181 jurisdictions. ICE planned to expand Secure
                     Communities coverage nationwide by 2013.




     Operations of United States Immigration and Customs Enforcement’s Secure Communities

                                            Page 5
                As Secure Communities expanded to more jurisdictions, ICE
                reported a corresponding increase in the number of fingerprint
                matches in IDENT. Between FYs 2009 and 2011, the number of
                matches more than tripled. Figures 2 and 3 show the relationship
                between the implementation of Secure Communities and IDENT
                matches.

                Figure 2. Activated Jurisdictions, FYs 2009 Through 2011
                       1000

                        800

                        600
                                                                            937
                        400
                                                         570
                        200
                                      88
                          0
                                   FY 2009            FY 2010             FY 2011

                Figure 3. IDENT Matches, FYs 2009 Through 2011

                        400,000
                        350,000
                        300,000
                        250,000
                        200,000
                                                                           348,958
                        150,000
                                                         248,166
                        100,000
                         50,000            95,664
                              0
                                        FY 2009          FY 2010          FY 2011

                         Source: ICE.

                Earlier Identification of Criminal Aliens

                The information sharing capability of Secure Communities also
                allowed ICE to identify removable aliens earlier in the criminal
                justice process. ICE was able to identify individuals when local
                jurisdictions first submitted the fingerprints rather than after
                incarceration. Earlier identification meant that ICE could remove
                aliens with prior convictions or immigration violations regardless
                of the current charges against them.

                Prior to Secure Communities, under the Criminal Alien Program
                and the 287(g) Program, ICE might not have been able to identify

Operations of United States Immigration and Customs Enforcement’s Secure Communities

                                        Page 6
                         aliens with prior convictions or immigration violations if their
                         most current charges were minor and no prison sentences were
                         imposed. Under Secure Communities, local jurisdictions that
                         arrest individuals for minor charges submit their fingerprints to the
                         FBI, which then sends the fingerprints to DHS for screening in
                         IDENT. When IDENT matches are found, ICE researches these
                         individuals’ immigration and criminal histories and requests
                         detention. For example:

                              •	 A person fleeing from police officers after a traffic
                                 violation who had previously served a 2-year sentence for
                                 illegal reentry into the United States and had 11 criminal
                                 convictions, including drug trafficking and assault;

                              •	 A person possessing illegal drugs who had prior
                                 convictions for aggravated felonies, including larceny and
                                 fraud; and

                              •	 A person driving without a license who had prior
                                 convictions for assault and larceny and who had been
                                 previously removed from the United States.

                         Duplicative Research

                         ICE officers performed duplicative research before taking
                         enforcement action because the LESC did not have the technical
                         capability to share details of its initial research with ICE field
                         offices. Once fingerprints matched an immigration record, LESC
                         personnel reviewed as many as 16 databases to determine the
                         criminal history and immigration status of the matched individual.
                         After the LESC notified a field office or Interoperability Resource
                         Center, ICE personnel researched matches again because the
                         LESC’s notices did not contain details of its research, such as past
                         convictions or a comprehensive immigration history. ICE officers
                         conducted their own research of matches because of the LESC’s
                         technical limitations, and because officers wanted to ensure that
                         they took appropriate enforcement actions.

                         ICE attempted to eliminate duplication in the research process by
                         modernizing the LESC’s Alien Criminal Response Information
                         Management System (ACRIMe). 3 Since FY 2008, ICE has spent
                         about $12 million for a contractor to develop ACRIMe into a
                         system that would allow ICE’s field personnel to review the

3
 The LESC’s ACRIMe supports ICE’s responses to immigration status inquiries on individuals arrested or
encountered by local law enforcement agencies.

         Operations of United States Immigration and Customs Enforcement’s Secure Communities

                                                Page 7
                           LESC’s research or to perform their own research. However, after
                           the initial attempt to modernize ACRIMe, the system did not
                           function as intended. In October 2011, ICE obtained a new
                           contractor to continue to develop ACRIMe, but it does not have a
                           new timeline for ACRIMe deployment.

         Enforcement Actions
                  Officers generally took enforcement actions consistent with ICE’s
                  enforcement policy. However, officers did not always sufficiently
                  document these actions.

                           ICE’s Enforcement Priorities

                           In March 2011, ICE reissued its policy outlining enforcement
                           priorities for all ICE programs. According to the enforcement
                           policy, ICE officers may still pursue the removal of all aliens
                           unlawfully in the United States, but should commit resources
                           primarily to the following:

                               •	 Priority 1: Aliens who pose a danger to national security
                                  or a risk to public safety. ICE defined three levels of
                                  Priority 1 crimes:

                                             Crime Level 1: Aliens convicted of aggravated
                                             felonies, 4 or two or more crimes each punishable by
                                             more than 1 year (commonly referred to as
                                             “felonies”).

                                             Crime Level 2: Aliens convicted of any felony, or
                                             three or more crimes punishable by less than 1 year
                                             (commonly referred to as “misdemeanors”).

                                             Crime Level 3: Aliens convicted of crimes
                                             punishable by less than 1 year.

                               •	 Priority 2: Aliens who violate immigration controls at the
                                  border and at ports of entry or have abused visa programs.




4
  The Immigration and Nationality Act of 1952, as amended, defines “aggravated felonies” for purposes of
the act to include such crimes as murder; rape; illicit trafficking of firearms and controlled substances;
violent crimes for which the term of imprisonment is at least 1 year; fraud offenses over $10,000; certain
offenses related to alien smuggling; and theft or burglary for which the term of imprisonment is at least 1
year. See 8 U.S.C. 1101(a)(43).

          Operations of United States Immigration and Customs Enforcement’s Secure Communities

                                                   Page 8
                               •	 Priority 3: Aliens who are fugitives 5 or have otherwise
                                  obstructed immigration controls. This priority includes
                                  aliens who reenter the country illegally after removal or
                                  enter fraudulently.

                           Adjustment to Crime Levels

                           Between FY 2008 and FY 2010, Secure Communities used a
                           standard list of crimes to prioritize enforcement actions. As part of
                           its new enforcement policy, ICE modified the crime levels under
                           its top priority (Priority 1) as follows:

                               •	 Level 1: Moved 17 crimes, which had been at Level 2 or
                                  3, up to this level, including 11 crimes with sentences of
                                  more than 1 year such as drug trafficking, alien smuggling,
                                  and arson. The remaining 6 of 17 included crimes such as
                                  terrorism and human slavery and trafficking. The
                                  Immigration and Nationality Act of 1952, as amended,
                                  defines all 17 of these crimes as aggravated felonies.

                               •	 Level 2: Moved eight crimes up to this level from Level 3,
                                  including illegal reentry, identity theft, extortion, and gang
                                  activity.

                               •	 Level 3: Added 13 crimes to this level, including violating
                                  court orders, harboring fugitives, and disorderly conduct.

                           Regardless of the crime level, ICE’s priority is to remove aliens
                           with criminal convictions. However, ICE considers aliens with
                           Level 1 convictions higher priority than those with Level 2 or 3
                           convictions.

                           Assessing Enforcement Decisions

                           In most cases, ICE officers took enforcement action consistent
                           with enforcement policy. We selected 766 Secure Communities
                           cases from FY 2011 to assess the actions officers took in response
                           to matches in IDENT. In 43 of the 766 cases, officers did not enter
                           all pertinent information into the case management system. ICE’s
                           records were not sufficient to determine whether officers took
                           appropriate actions. In some of the 43 cases, officers did not enter
                           any information into the system.


5
  Fugitive aliens are those who receive a final order of removal but have not surrendered to ICE or have not
left the United States.

          Operations of United States Immigration and Customs Enforcement’s Secure Communities

                                                   Page 9
                Of the 723 cases we could assess, officers took enforcement
                actions consistent with ICE’s policy in 698 (97%). Our review
                showed that officers—

                    •	 Requested detention, removed, or determined that
                       individuals could not be removed from the United States
                       for 267 Priority 1 criminal cases and 48 Priority 2 or 3
                       cases;

                    •	 Requested detention of 11 legal permanent residents with
                       removable convictions;

                    •	 Did not request detention of 88 U.S. citizens, 218 aliens
                       with legal status, and 21 aliens with no prior immigration
                       or criminal records; and

                    •	 Requested detention of 45 aliens with criminal charges.
                       Although these cases did not fall under one of ICE’s three
                       priorities, ICE determined that the individuals were in the
                       country unlawfully and pursued removal.

                In the remaining 25 (3%) of 723 cases, officers’ enforcement
                actions did not appear to align with ICE’s enforcement policy.
                Although information in the case management system indicated
                that these cases fell under one of ICE’s priorities, there was no
                record of officers requesting detention in 16 Priority 1 cases or 8
                Priority 2 or 3 cases. In addition, officers requested detention of
                one legal permanent resident who did not have a removable
                conviction. According to ICE, this individual had a lengthy
                criminal record, but ICE could not provide information showing
                any removable conviction.

Secure Communities Incarceration Costs
       Law enforcement agencies in jurisdictions activated under Secure
       Communities did not incur significant incarceration costs resulting from
       activation. We interviewed law enforcement officials at 37 activated local
       jurisdictions to determine whether Secure Communities resulted in
       increased incarceration costs. Of these 37 jurisdictions, 31 (84%) reported
       that they did not incur incarceration costs, and the remaining 6 (16%)
       incurred minimal costs. However, none of the jurisdictions that reported
       minimal costs could quantify them.

       We attempted to interview officials in Cook County, Illinois, after the
       county claimed that it incurred significant costs detaining criminal aliens
       identified through Secure Communities. Cook County claimed that it
Operations of United States Immigration and Customs Enforcement’s Secure Communities

                                      Page 10
       incurred about $43,000 per day, or $15 million per year, in incarceration
       costs, but at the time of our review ICE had not activated Secure
       Communities in Cook County.

Actions Taken by ICE
       During the time of our review, ICE developed and implemented changes
       in its case management process. In July 2011, ICE issued a new policy
       instructing its officers to document alien encounters in the case
       management system. In addition, in November 2011, ICE reiterated to all
       field offices its case management requirement to document all Secure
       Communities matches, whether or not officers took enforcement actions.

       Recommendations
                We recommend that the Immigration and Customs Enforcement’s
                Enforcement and Removal Operations, Executive Associate
                Director:

                Recommendation #1: Develop procedures to eliminate
                duplication in the identification process. If necessary, develop
                short-term and long-term procedures.

                Recommendation #2: Develop procedures and system controls to
                ensure that officers complete all records for individuals identified
                through Secure Communities.

Management Comments and OIG Analysis
                We obtained and reviewed written comments on the draft report
                from ICE’s Chief Financial Officer. Where appropriate, we made
                changes to the report. According to its response to the draft report,
                ICE concurred with both of the recommendations. We included a
                copy of the management comments in their entirety in appendix B.
                The following is an evaluation of ICE’s official response.

                Management Response on Recommendation #1

                ICE concurred with the recommendation and stated that it
                continues to modernize ACRIMe to provide an interface that will
                make data available to specialists. The enhancements will provide
                searching capabilities to field offices and will provide field agents
                with access to the information that an LESC specialist used in their
                query response. This will provide a more efficient process for both
                the LESC and field offices to determine and report an individual’s


Operations of United States Immigration and Customs Enforcement’s Secure Communities

                                      Page 11
                status and will eliminate the duplication that currently occurs when
                a field agent validates the LESC research and status determination.
                ICE estimated that it will provide all field offices nationwide with
                the enhancements in FY 2013. In addition, ICE stated that short-
                term solutions would add inefficiencies to the identification
                process, increase processing times for status determinations, and
                lengthen time for incoming queries from law enforcement
                agencies.

                OIG Analysis: We consider ICE’s actions responsive and
                consider the recommendation resolved, but it will remain open
                until ICE completes deployment of the modernized ACRIMe
                system.

                Management Response on Recommendation #2

                ICE concurred with the recommendation and stated that it is
                developing a monthly report that will identify compliance rates in
                line with the requirement to document encounters and dispositions
                on all IDENT matches, even for cases where ICE did not take
                enforcement action. The report will document the compliance rate
                for each ICE field office and provide details for the IDENT
                matches that did not have a corresponding encounter and
                processing disposition entered into ICE’s enforcement systems.

                OIG Analysis: We consider ICE’s actions responsive and
                consider the recommendation resolved, but it will remain open
                until ICE provides an example of its recurring report.




Operations of United States Immigration and Customs Enforcement’s Secure Communities

                                      Page 12
Appendix A
Purpose, Scope, and Methodology

                       In response to a request from Representative Zoe Lofgren, the
                       Office of Inspector General initiated two reviews of Secure
                       Communities. This report provides the results of our work to
                       determine whether ICE’s Secure Communities was effective in
                       identifying criminal aliens and prioritizing cases for removal
                       actions. To achieve our objectives, we—

                           •	 Interviewed ICE officials in Washington, DC; LESC
                              officials in Burlington, Vermont; and ICE officers in
                              Boston, Massachusetts; Denver, Colorado; Miami, Florida;
                              Houston, Texas; Phoenix, Arizona; Los Angeles, San
                              Diego, and San Francisco, California; and Chicago, Illinois;

                           •	 Interviewed law enforcement agencies in 37 local
                              jurisdictions to determine whether they incurred
                              incarceration costs attributable to activation of Secure
                              Communities;

                           •	 Reviewed a random sample of 766 cases to determine
                              whether ICE officers’ enforcement actions were consistent
                              with ICE’s priorities;

                           •	 Reviewed policies and procedures related to identification
                              of criminal aliens, prioritization of enforcement actions,
                              and officer use of prosecutorial discretion;

                           •	 Reviewed contract documentation for ICE’s ACRIMe
                              modernization effort;

                           •	 Assessed the reliability and validity of ICE’s data; and

                           •	 Reviewed prior audit reports regarding enforcement action
                              decisions and identification and removal of criminal aliens.

                       We conducted this performance audit between July and November
                       2011 under the authority of the Inspector General Act of 1978, as
                       amended, and according to generally accepted government
                       auditing standards. Those standards require that we plan and
                       perform the audit to obtain sufficient, appropriate evidence to
                       provide a reasonable basis for our findings and conclusions based
                       upon our audit objectives. We believe that the evidence obtained
                       provides a reasonable basis for our findings and conclusions based
                       upon our audit objectives.



       Operations of United States Immigration and Customs Enforcement’s Secure Communities


                                             Page 13

Appendix B
Management Comments to the Draft Report




                                                                         Offin' 0/1111' Chilf F;lI(lIIcioJ Ofjii;('r

                                                                         U.S. 1>cpa rllllcnl of Homela nd
                                                                         Seruritv
                                                                         500 12'" Street. SW
                                                                         W~slrnslon. DC 20536



                                                                         u.s. Immigration
                                                                         and Customs
                                                                         Enforcement


                                           February 23, 2012



        MEMORANDUM FOR:              Anne L. Richards
                                     Assistant In spector General ror Audits
                                     Office of 1 11~~",­
        FROM:                          abaC.    ,~

        SUBJECT:                     Errectiveness or United States Immigration and Customs
                                     Enrorcement ' s Secure Communities -- OIG Project No. 11 -
                                     138-AUD-ICE


        U.S. Immi gration and Customs Enrorcement (ICE) is pleased to provide a response to the
        draft report ror this subject <Iudit. ICE concurs with the two recommendations and our
        comments are attached .
        IrYOll have any questions, please contact Michael Moy, D IG portrolio Manager, at 202 -
        732-6263, or via email at Michael.Moy@dllS .goV .




        Attachments




                                                                                                          -I-




      Operations of United States Immigration and Customs Enforcement’s Secure Communities


                                                 Page 14

Appendix B
Management Comments to the Draft Report




       Recommelldatiolf 1: Develop procedures to eliminate duplication ill the identification
       process. If necessary, develop short~term and long~term procedures.

        ICE concurs with this r.commendation. As th. report has indicated, ICE continues its
        development of the modernized Alien Criminal Response Information Management
        System (ACRIMe). which will automate key components of the status determination
        process, decrease the number of systems the Law Enforcement Support Cent.r (LESC)
        law enforcement specialist must manually search, and provide specialists an interface to
        make data available to ENFORCE. Thesc enhanccments will provide searching capability
        to field offices, as well as provide field agents access to the information an LESC
        specialist used in their query response. This functionality will provide a more efficient
        process for both the LESC and field offices to determine and report an individual's status
        and will eliminate the duplication that currently occurs when a field agent validates the
        LESC research and status determination.

        The implementation milestones for ACRlMe include:

        •   Develop a web-based interface for searching of National Crime Information Center
            (NCIC) and National Law Enforcement Telecommunications System (NLETS):
            Completed during quarter one fiscal year 2012.
        •   Deploy the web-based interface for searching NCIC and NLETS: Completed during
            quarter two of fiscal year 2012.
        •   Begin development of Immigration Alien Query (IAQ) processing to replace the
            legacy ACRlMe IAQ processing component: Estimated during quarter two of fiscal
            year 2012.
        •   Begin development ofField Access Release to allow field office staff to review the
            LESC's research or to perform their own research. Estimated during quarter three of
            fiscal year 2012.
        •   Begin training the LESC on the improVed IAQ Processing: Estimated during quarter
            four of fiscal year 2012.
        •   Deploy limited field access functionality at selected field offices in a phased roll out:
            Estimated during quarter one of fiscal year 2013.

        ICE completed a lessons learned exercise on the initial modernized ACRIMe effort and
        identified two primary challenges: complex business requirements had not been fully
        understood by the development tearn. and the development tearn had adhered to poor
        coding practices. ICE developed mitigation strategies to address these challenges, and
        has implemented an agile systems development methodology. This new development
        methodology requires direct and constanl (daily) inleraclion between developers and end
        users, helping to ensure productive understanding and communication relaled 10
        requirements. Additionally, the agile methodology is based on a test-driven developmenl
        approach Ihal encourages direcl inleraclion between ICE's lechnical archilecture staffand
        the development tearn to ensure that the developmenttearn is coding to a clear standard
        and is following acceptable coding practices. ICE understands Ihe risks involved with
        employing a new systems development methodology and will rely heavily on Ihe Office
        oflhe Chieflnforrnation Officer to inlegrate the work of several small business vendors



                                                                                                 -2-



      Operations of United States Immigration and Customs Enforcement’s Secure Communities


                                                 Page 15

Appendix B
Management Comments to the Draft Report




         and assisl in implemenling !he agile approach 10 Ihe ACRlMe development effort. ICE
         understands that failure to transition to these new strategies and methods are a risk to
         schedule, budget, and perfonnance.

         ICE assessed alternative short·term solutions and has determined that such activity would
         only add additional inefficiencies to the identification process. For example, providing
         ICE field personnel with "screen shots" from systems used by LESe technicians or
         faxing the results of database searches would increase the processing times for status
         detenninations and lengthen queue times for incoming queries from law enforcement
         agencies.

         ICE requests that this recommendation be considered Resolved and Open pending
         complele deploymenl and conlinued operalion oflhe modernized ACRIMc syslem. ICE
         eslimales !hallhe modernized syslem will be in use nalionwide by all ICE field offices in
         fiscal year 2013 .

         Recommendation 2: Develop procedures alld system controls to ellsure ofllcers
         complete til/ records for individuals Identified through Secure Communides

         ICE concurs with this recommendation. There is often a Jag between the time that a
         criminal conviction is rendered and the time that these convictions are recorded in law
         enforcement systems (e.g.• the Federal Bureau ofInvestigation's National Crime
         Information Center). While ICE agents and officers' conduct prioritized enforcement
         operations with the knowledge of such criminal convictions, the agency cannot label the
         case as a "criminal alien" removal until the appropriate judgment and disposition record
         is loealed and recorded. To mitigate Ihe impact to ICE's reponing, !he field is provided
         access to a list of public websites and sources that contain criminal history infonnation
         from various states and localities. These criminal history sources provide the field with
         more timely access to conviction documentation, thereby improving its reponing.

         Additionally, ICE headquarters continues its data quality initiatives to maintain a
         "feedback loop" to field offices regarding the completeness and accuracy of data entered
         into ICE systems. For example, ICE headquarters provides the field, on a bi-monlhly
         basis. with the results ofa report that examines non-criminal alien removals and identifies
         specific cases where criminal history information shows evidence of a conviction.
         Through !his report, ICE headquarters !hen provides each unique case 10 !he appropriale
         ICE field office with instructions to examine the case and provide the requisite criminal
         history information. This data quality initiative ensures that aliens with criminal
         convictions who are removed by ICE are accurately recorded in ICE systems as criminal
         alien removals.

         As !he draft repon stated, ICE did not hislorically record much data regarding case
         referrals Ihrough the use of IDENT/IAFIS inleroperability that did not result in an ICE
         enforcement action. ICE is developing a recurring report that will identify compliance
         rates in line with the requirement to document encounters and processing dispositions on
         all alien IDENT matches, even those for which no ICE enforcement action has been



                                                                                                - 3-




      Operations of United States Immigration and Customs Enforcement’s Secure Communities


                                                 Page 16

Appendix B
Management Comments to the Draft Report




           taken. This monthl y report will document the com pliance rate for eac h ICE field office's
           area of responsibility and provide detai ls fo r the IDENT matches that did not have a
           corresponding encounter and process in g di sposition entered into ICE's enfot'cemen\
           systems. The report findin gs will be aggregated by indi vidual alien identification number
           and assessed to detenlline if the applicab le case details require additional review and
           updates. For those cases that have not been appropriately documented , ICE field offices
           will be provided guidance and required to enter or update the appropriate inronnatioll.

           ICE requests that thi s recommendation be considered Resolved and Open pending the
           development and issuance of the aforementioned report . The est imated completion dale
           of the report development is March 31, 2012.




                                                                                                 -4-




Prior to Secure Communities, ICE had three programs focused on identifying and
removing criminal aliens:
        Operations of United States Immigration and Customs Enforcement’s Secure Communities

                                                   Page 17
Appendix C
ICE Identification and Removal Programs


                           •	 Criminal Alien Program: Identifies, processes, and
                              removes criminal aliens incarcerated in federal, State, and
                              local prisons and jails throughout the United States,
                              preventing their release into the general public by securing
                              a final order of removal prior to the termination of their
                              sentences.

                           •	 National Fugitive Operations Program: Identifies,
                              locates, and arrests fugitive aliens; aliens who have been
                              previously removed from the United States; removable
                              aliens who have been convicted of crimes; and aliens who
                              enter the United States illegally or otherwise defy the
                              integrity of U.S. immigration laws and border control
                              efforts.

                           •	 Delegation of Immigration Authority Section 287(g)
                              Immigration and Nationality Act (the 287(g) Program):
                              The 287(g) Program allows States and local law
                              enforcement agencies to enter into partnerships with ICE
                              through bilateral memorandums of agreement under which
                              they are delegated authority for immigration enforcement
                              in their jurisdictions.




       Operations of United States Immigration and Customs Enforcement’s Secure Communities

                                             Page 18
Appendix D
Jurisdictions Where ICE Activated Secure Communities

                       In October 2008, ICE began activation of Secure Communities in
                       Harris County, Texas. As of December 28, 2011, ICE reported
                       that it had activated Secure Communities in 2,027 jurisdictions in
                       44 States.




       Source: ICE.




       Operations of United States Immigration and Customs Enforcement’s Secure Communities

                                             Page 19
Appendix E
Major Contributors to this Report

                       Linda Howard, Director
                       Sean Pettersen, Audit Manager
                       Holly Snow, Auditor-In-Charge
                       Patricia Benson, Auditor-In-Charge
                       Andrew Herman, Auditor
                       Emily Pedersen, Program Analyst
                       G. Scott Crissey, Program Analyst
                       Gary Crownover, Program Analyst
                       Ignacio Yanes, Program Analyst
                       Pamela Weatherly, Auditor
                       Ruth Arevalo, Program Analyst
                       Steve Doran, Auditor
                       Mark S. Phillips, Independent Referencer
                       Kelly Herberger, Communication Analyst




       Operations of United States Immigration and Customs Enforcement’s Secure Communities

                                             Page 20
Appendix F
Report Distribution

                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretariat
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs
                       Director, U.S. Immigration and Customs Enforcement
                       ICE Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




       Operations of United States Immigration and Customs Enforcement’s Secure Communities


                                             Page 21

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
